<html>
<title> - EPA'S REGULATORY THREAT TO AFFORDABLE, RELIABLE ENERGY: THE PERSPECTIVE OF COAL COMMUNITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                  EPA'S REGULATORY THREAT TO AFFORDABLE, 
                    RELIABLE ENERGY: THE PERSPECTIVE OF COAL 
                    COMMUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2013

                               __________

                           Serial No. 113-89
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                               ____________
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
87-546                       WASHINGTON : 2015                         
                        
______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b0c1b042b081e181f030e071b4508040645">[email&#160;protected]</a>  
                       
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
PHIL GINGREY, Georgia                JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana                  Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
CORY GARDNER, Colorado               BRUCE L. BRALEY, Iowa
MIKE POMPEO, Kansas                  PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          BRUCE L. BRALEY, Iowa
PHIL GINGREY, Georgia                BEN RAY LUJAN, New Mexico
STEVE SCALISE, Louisiana             EDWARD J. MARKEY, Massachusetts
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
PETE OLSON, Texas                    G.K. BUTTERFIELD, North Carolina
CORY GARDNER, Colorado               KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         PETER WELCH, Vermont
BILL JOHNSON, Ohio                   PAUL TONKO, New York
BILLY LONG, Missouri                 GENE GREEN, Texas
RENEE L. ELLMERS, North Carolina     JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Diana DeGette, a Representative in Congress from the state 
  of Colorado, opening statement.................................     5
Hon. John A. Yarmuth, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     6
Hon. Fred Upton, a Representative in Congress from the state of 
  Michigan, prepared statement...................................     6
    Prepared statement...........................................     7
Hon. H. Morgan Griffith, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     8
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     9

                               Witnesses

Albey Brock, Bell County Judge/Executive, Pineville, Kentucky....    12
    Prepared statement...........................................    14
    Answers to submitted questions \1\...........................    69
Raymond C. Ventrone, Business Manager, Boilermakers Local 154, 
  Pittsburgh, Pennsylvania.......................................    17
    Prepared statement...........................................    19
    Answers to submitted questions...............................    72
Roger D. Horton, Founder, Citizens for Coal, Holden, West 
  Virginia.......................................................    23
    Prepared statement...........................................    26
    Answers to submitted questions \2\...........................    77
Daniel Weiss, Senior Fellow and Director of Climate, Center for 
  American Progress..............................................    29
    Prepared statement...........................................    31
    Answers to submitted questions...............................    80
Olen Lund, Former County Commissioner; Delta County, Colorado....    43
    Prepared statement...........................................    45
    Answers to submitted questions...............................    89
John Fetterman, Mayor, Braddock, Pennsylvania....................    47
    Prepared statement...........................................    49
    Answers to submitted questions \3\...........................    92
John Pippy, Chief Executive Officer, Pennsylvania Coal Alliance, 
  Harrisburg, Pennsylvania.......................................    51
    Prepared statement...........................................    53
    Answers to submitted questions...............................    95

                           Submitted material

Committee memorandum.............................................    66

----------
\1\ Mr. Brock did not respond to submitted questions for the 
  record.
\2\ Mr. Horton did not respond to submitted questions for the 
  record.
\3\ Mr. Fetterman did not respond to submitted questions for the 
  record.


EPA'S REGULATORY THREAT TO AFFORDABLE, RELIABLE ENERGY: THE PERSPECTIVE 
                          OF COAL COMMUNITIES

                              ----------                              


                       TUESDAY, OCTOBER 29, 2013

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:07 p.m., in 
room 2123 of the Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Members present: Representatives Murphy, Burgess, 
Blackburn, Gingrey, Scalise, Harper, Gardner, Griffith, 
Johnson, Long, Ellmers, Upton (ex officio), DeGette, Braley, 
Tonko, Yarmuth, Doyle, McKinley and Waxman (ex officio).
    Staff present: Charlotte Baker, Press Secretary; Karen 
Christian, Chief Counsel, Oversight; Brad Grantz, Policy 
Coordinator, Oversight and Investigations; Tom Hassenboehler, 
Chief Counsel, Energy and Power; Brittany Havens, Legislative 
Clerk; Mary Neumayr, Senior Energy Counsel; Sam Spector, 
Counsel, Oversight; Peter Spencer, Professional Staff Member, 
Oversight; Tim Wilbur, Digital Media Advisor; Brian Cohen, 
Democratic Staff Director, Oversight and Investigations, and 
Senior Policy Advisor; Kiren Gopal, Democratic Counsel; and 
Kara van Stralen, Democratic Policy Analyst.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Good afternoon everyone, and welcome to our 
subcommittee hearing, Oversight and Investigations, titled 
``EPA's Regulatory Threat to Affordable, Reliable Energy: the 
Perspective from Coal Communities.''
    Before I start, I would just like to lay out our schedule 
today. We are going to be on a very tight schedule. I am going 
to have a very quick gavel, so if anybody tries to go over your 
time, we are going to stop you because at 3 o'clock, we have a 
hard stop time because of a special ceremony for former Speaker 
Foley. Also, approximately around 1:30, we will have votes. We 
will take a quick break at that time and then come back, so I 
ask that members rush back here after they vote on the floor. I 
will open up with my statement and then I will recognize Ms. 
DeGette.
    A century ago, when my grandfather came to America, he 
worked in a coal mine. Things were different back then. Mines 
were extremely dangerous. Roofs would collapse. Mine injuries 
and deaths were all too common. Back then, factories, homes, 
and power plants burned coal without concern for the 
environment so the skies were dark with soot. Streetlights 
turned on at noon, and businessmen would take a second white 
dress shirt to work to change into at midday.
    Major changes in environmental practices have cleared the 
skies and reduced emissions by more than 50 percent even as 
coal usage tripled. We can always do better, and I support a 
real commitment to investing in clean coal, but that is made 
exceedingly difficult under the President's budget, which cuts 
$230 million from clean-coal research at the National Energy 
Technology Laboratory. The Administration giving up on clean 
coal reminds me of the editors of New York Times, who opined in 
1903 after a failed attempt at flight by the Wright Brothers, 
that it would be one million to ten million years before man 
could fly. On that same day, the Wright Brothers wrote in their 
diary, ``Today we began construction on the airplane.''
    Instead, the Administration wants to direct billions in 
subsidies at unproven renewable energy projects. But you can't 
make windmills without steel and you can't make steel without 
coal.
    Coal is quite literally the bedrock of thousands of 
communities across the country. Powering 40 percent of our 
homes and factories, coal touches nearly every aspect of life. 
It fires the steel mills that have built the Empire State 
Building and the Golden Gate Bridge, and provides good jobs and 
paychecks to thousands of Americans.
    Today, we are going to hear from workers, local officials 
and others whose lives and communities depend on coal. In parts 
of Ohio, Kentucky, Colorado, and 22 other coal-producing 
States, families are going on the government dole, schools and 
municipal services are being cut, and communities are being 
driven into poverty partly because new regulations from the 
Environmental Protection Agency are destroying the prosperity 
of these coal towns.
    In June 2011, then-Administrator Lisa Jackson told this 
committee that the EPA does not look at the impact on jobs when 
they come up with new regulations. Today we will look in the 
eyes of those whom the EPA says are not important: the workers 
and families of coal. These are folks who lose their jobs and 
they get put on unemployment. When the unemployment runs out, 
they get put on welfare. When they can't afford their home 
anymore, they are given public housing. When they can't feed 
their kids, they are given food stamps. They never wanted a 
handout. All they wanted was a job. These workers bear the 
immediate cost of the EPA's actions, and this hearing is not 
about why or how the EPA draws up new regulations or permitting 
requirements. As part of our oversight responsibilities, we 
regularly take testimony about the Agency's decisions, and we 
will continue to do so in the months ahead.
    But too often, the practice in Washington is to listen as 
beltway experts and the EPA explain Agency actions. But this 
practice doesn't capture the daily impact of Washington on the 
distant communities where good jobs, with good wages, support a 
proud way of life.
    In my district, the Agency didn't consider the nearly 400 
people in Pennsylvania who were put out of work last week at 
the Hatfield and Mitchell coal-fired power plants in Greene and 
Washington Counties. This was after the plant's owner spent 
nearly half a billion dollars making Hatfield one of the 
cleanest super-critical facilities in the country, only to 
throw in the towel when the EPA announced new unworkable 
mandates for 2016. The EPA did not consider the ten people who 
lost their jobs at Joy Mining in Houston, Pennsylvania last 
Friday, or the 130 individuals at PBS Coals in Somerset County 
who were laid off in May, the third round of layoffs at the 
company in less than a year. These Pennsylvanians joined the 
nearly 6,000 miners who lost their jobs in 2012 working 
directly in the coal mining industry and thousands of factory 
workers, boilermakers, laborers, electricians, operating 
engineers, steamfitters, plumbers, and machinists, all out of 
work or under threat of losing their jobs.
    Our witnesses today can speak to what the coal industry 
means to coal-reliant regions like eastern Kentucky, West 
Virginia, Pennsylvania and western Colorado. They can speak to 
what the industry has meant in terms of providing a good 
standard of living and the support for local governments, the 
schools and services critical to daily life.
    This is not an academic debate. For some of these 
communities, what happens here in Washington is the difference 
between a decent living and poverty. And when a person grows up 
in poverty, they are at higher risk of drug abuse, chronic 
depression, and other medical problems. A recent study by 
Georgetown University says these families have other risks for 
obesity, cancer, hypertension, stroke, and cardiovascular 
disease because of the stresses of poverty and unemployment.
    We will hear from some who say coal plants are closing 
because natural gas is cheaper. Not true. They are closing 
because the EPA refuses to work out solutions that help coal 
move forward to be even cleaner than it already is. These 
plants are closing because the EPA makes it impossible to 
comply with Agency standards.
    Today's hearing, I hope, will help Congress make the right 
decisions going forward so that more people can benefit from 
the good and honorable living the coal industry provides.
    [The prepared statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    A century ago when my grandfather came to America, he 
worked in a coal mine. Things were different then. Mines were 
extremely dangerous. Roofs would collapse. Mine injuries and 
deaths were all too common. Back then, factories, homes, and 
power plants burnt coal without concern for the environment so 
the skies were dark with soot. Streetlights turned on at noon, 
and businessmen would take a second white dress shirt to work 
to change into at mid-day.
    Major changes in environmental practices have cleared the 
skies and reduced emissions by more than fifty percent even as 
coal usage tripled. We can always do better. I support a real 
commitment to investing in clean coal, but that's made 
exceedingly difficult under the president's budget, which cut 
$230 million from clean-coal research at the National Energy 
Technology Laboratory. The administration giving up on clean 
coal reminds me of the editors of New York Times, who opined in 
1903 after a failed attempt at flight by the Wright Brothers, 
that it would be one million to ten million years before man 
could fly.
    Instead, the administration wants to direct billions in 
subsidies at unproven renewable energy projects.
    But you can't make windmills without steel and you can't 
make steel without coal.
    Coal is quite literally the bedrock of thousands of 
communities across the country. Powering forty percent of our 
homes, and factories, coal touches nearly every aspect of life. 
Coal fires the steel mills that have built the Empire State 
Building and the Golden Gate Bridge, and provides good jobs and 
paychecks to thousands of Americans.
    Today, we are going to hear from workers, local officials, 
and others whose lives and communities depend on coal.
    In parts of Ohio, Kentucky, Colorado, and the 22 other coal 
producing states, families are going on the government dole, 
schools and municipal services are being cut, and communities 
are being driven into poverty partly because new regulations 
from the Environmental Protection Agency are destroying the 
prosperity of these coal towns.
    In June 2011, then-Administrator Lisa Jackson told this 
committee that the EPA does not look at the impact on jobs when 
they come up with new regulations. Today we will look in the 
eyes of those whom the EPA says are not important: the workers 
and families of coal.
    These workers bear the immediate cost of EPA's actions. 
This hearing is not about why or how the EPA draws up new 
regulations or permitting requirements. As part of our 
oversight responsibilities, we regularly take testimony about 
the agency's decisions, and will continue to do so in the 
months ahead.
    Too often, the practice in Washington is to listen as 
beltway experts and the EPA explain agency actions. But this 
practice doesn't capture the daily impact of Washington on the 
distant communities where good jobs, with good wages, support a 
proud way of life. In my district, the agency didn't consider 
the nearly 400 people, who were put out of work last week at 
the Hatfield and Mitchell coal-fired power plants in Greene and 
Washington Counties. This was after the plant's owner spent 
nearly half-a-billion dollars making Hatfield one of the 
cleanest super-critical facilities in the country--only to 
throw in the towel when the EPA announced new unworkable 
mandates for 2016.
    The EPA didn't consider the ten people who lost their jobs 
at Joy Mining in Houston, Pennsylvania last Friday, or the 130 
individuals at PBS Coals in Somerset County who were laid off 
in May, the third round of layoffs at the company in less than 
a year.
    These Pennsylvanians joined the nearly 6,000 miners who 
lost their jobs in 2012 working directly in the coal mining 
industry--and thousands of factory workers, boilermakers, 
laborers, electricians, operating engineers, steamfitters, 
plumbers, and machinists, all out of work or under threat of 
losing their jobs. Our witnesses today can speak to what the 
coal industry means to coal-reliant regions like Eastern 
Kentucky, West Virginia, Pennsylvania, and Western Colorado. 
They can speak to what the industry has meant in terms of 
providing a good standard of living and the support for local 
governments, the schools, and services critical to daily life.
    This is not an academic debate. For some of these 
communities, what happens here in Washington is the difference 
between a decent living and poverty. And when a person grows up 
in poverty, they are at higher risk of drug abuse, chronic 
depression, and other medical problems. A recent study by 
Georgetown University says these families have other risks for 
obesity, cancer, hypertension, stroke and cardiovascular 
disease because of the stresses of poverty and unemployment.
    We will hear from some who say coal plants are closing 
because natural gas is cheaper. Not true. They are closing 
because the EPA refuses to work out solutions help coal move 
forward to be even cleaner than it already is. These plants are 
closing because the EPA makes it impossible to comply with 
agency standards.
    Today's hearing, I hope, will help Congress make the right 
decisions going forward so that more people can benefit from 
the good and honorable living the coal industry provides.

                                #  #  #

    Mr. Murphy. With that, I will end early and recognize 
Ranking Member DeGette for the purposes of an opening 
statement.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman. I want to 
welcome all of your constituents, Mr. Doyle's constituents, and 
even Mr. Lund, who is from Colorado, western Colorado--like me, 
a Colorado native. We are glad to have all of you here with us 
today.
    You know, Mr. Chairman, I know the witnesses here have 
really compelling testimony, and I want to thank each and every 
one of you for coming. I don't take the concerns that you are 
going to talk about today lightly. I think we do need to think 
about the economies of all of these communities, and frankly, 
Mr. Chairman, we need to talk about more than just the EPA 
regulations. We do also need to talk about the real reality 
that as natural gas becomes cheaper than coal and more and more 
other utilities and others transfer to natural gas, it is the 
invisible hand of the free market. Utilities are moving to 
natural gas because it makes business sense. So we do need to 
talk about that, and as we think about what is happening with 
the loss of jobs in coal country, we need to think about the 
inevitable hand of the free market and what we do about that.
    Something else we need to think about is why the EPA is 
making these regulations, and they are making these regulations 
because there is another real threat aside from the loss of 
these jobs, which is an important issue. We also have a 
catastrophic issue facing us, and that issue is the issue of 
climate change. If you look at what happened one year ago today 
when Hurricane Sandy made landfall in the United States, over 
100 people were killed. There was devastation throughout the 
East Coast. And when you look at what happened in Colorado this 
summer in my home State where we saw the potential impacts of 
climate change firsthand with 11,000 people being evacuated 
from their homes, 19,500 homes being damaged and over 1,500 
being destroyed in these catastrophic floods. And so when you 
look at climate change, you have to say why is EPA making these 
regulations and what we can do.
    And so as we look at this whole issue, we look at, number 
one, the need to reduce carbon pollution, we need to protect 
public health and the environment, and we also need to provide 
assistance to communities and individuals that are hard hit 
both by the shift from coal and also by climate change so that 
people can transition to improved technologies that will meet 
our energy needs.
    Mr. Chairman, I am open to any ideas that my colleagues or 
the witnesses have today about how we can help these 
communities move forward. We should do more than just have this 
one hearing. We should do more than just hear one side of the 
story. We should have hearings also on climate change so that 
we can hear from witnesses in Boulder and Salina and Jamestown, 
Colorado, from New York and New Jersey, who have lost their 
jobs. We need to have a comprehensive look at this and see what 
we can do.
    And with that, I am happy to yield 2 minutes to Mr. 
Yarmuth, the newest member of this committee, and we are so 
delighted to have him.

OPENING STATEMENT OF HON. JOHN A. YARMUTH, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Yarmuth. I thank the ranking member.
    According to the title of this hearing, we are going to 
hear about the perspective of coal communities, but let me 
assure you, the concerns of residents in the coal communities 
of Kentucky do not stop after they open their utility bill. 
They are interested in their health and the harm mountaintop 
removal mining is doing to their families, friends and 
neighbors.
    Two recent studies found communities near mountaintop 
removal sites showed elevated risks of birth defects, while 
adult hospitalizations for chronic pulmonary disorders and 
hypertension increase in these communities as coal production 
does. So do the rates of mortality, lung cancer and chronic 
heart, lung and kidney disease. We must also consider the 
impact on the communities that are downwind. In Kentucky, one 
in five adults and one in 10 children suffer from asthma, which 
is exacerbated by the pollution that results in part from 
unrestricted carbon emissions.
    Mountaintop removal isn't just impacting the residents in 
coal communities. It is also taking their jobs. The decline in 
mining jobs did not start 2 years ago or 6 years ago when this 
President took office. It started more than three decades ago 
with the advent of mechanized mining and mountaintop removal. 
During that time, the number of mining jobs in Kentucky 
declined from approximately 47,000 in 1977 to 12,000 today. 
Meanwhile, coal production remains steady with the exception of 
recent drops due to the natural gas surge. In other words, the 
only ones who benefited from mechanized mining are the coal 
companies whose profits have remained far, far healthier than 
the local economies where they operate.
    You know, there is a reasonable dispute that we have to 
address our carbon problem, but we tried to do that in 2009 
after the Supreme Court required the government to develop 
limits on carbon pollution. We passed a Republican idea to 
create an emissions market, and I worked closely with other 
coal State members to ensure we wouldn't drive up utility costs 
to harm our States' economies. Unfortunately, Republicans 
blocked that legislation, and because of that, we are here 
today. I yield back.
    Mr. Murphy. Thank you. We now recognize the chairman of the 
full committee, Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    You know, when the work underground stops, everyone above 
pays the price. That observation made by a Boone County, West 
Virginia, TV reporter back in September of 2012, who succinctly 
captures the plight of America's coal communities. Over the 
past 5 years, as the Nation has struggled to emerge from the 
great recession, we have witnessed an onslaught of EPA rules 
and proposals that have significantly targeted the Nation's 
energy and manufacturing sectors, the vitality of which is 
essential for putting this Nation back on a path to long-term 
prosperity.
    We have conducted a number of hearings looking closely at 
the regulatory proposals and what they add up to in terms of 
compliance costs, and ultimately the prospects for people to 
have access to the affordable energy and the goods and services 
they rely on. Nowhere have we seen the risks to prosperity more 
clearly than in the continued accumulation of regulations 
facing the coal sector of our economy, and our coal communities 
have suffered greatly.
    Today we are going to hear important testimony that is 
going to provide the perspective of the communities that help 
provide Americans with the benefits of this abundant resource 
and the electricity that it produces. The views of the local 
officials and workers provide a testament to the importance of 
coal, as a source of good, meaningful work, and as a support 
for the quality of life that all communities around the Nation 
strive for. But the testimony also paints a troubling picture 
about the real damage that occurs when plants shutter, mines 
close, and people lose their jobs.
    It shouldn't have to be that way. I have been calling 
attention in recent months to the urgent need for ensuring that 
this Nation can embrace its energy abundance. This requires 
building the infrastructure and producing the fuels that 
provide power for our homes and our commerce and our 
manufacturing. It is only possible with a regulatory structure 
that encourages production of our diverse and abundant natural 
resources, including coal.
    The great irony is that coal has done so much to ensure 
affordable, reliable power for the majority of Americans for 
multiple generations. It has been a core fuel behind the great 
accomplishments of our manufacturing industry. And to a point 
underscored by the testimony today, coal has done much to lift 
so many out of poverty in this Nation. Today's hearing should 
remind us of these accomplishments that are at risk.
    Coal should continue to provide this Nation its tremendous 
benefits. It is a critical and important part of this Nation's 
future and a vital source of energy and jobs for millions of 
people in communities around the Nation. Our work on this 
committee, through oversight of EPA and through our legislative 
initiatives, will help to make that happen. We are a nation of 
opportunity, and while others may want to ban the use of coal, 
we will keep fighting to ensure that coal indeed remains an 
important part of our open, all-of-the-above energy plan.
    Thank you all for being here. I yield the balance of my 
time to the gentleman from Virginia, Mr. Griffith.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    ``When the work underground stops, everything above pays 
the price.'' That observation made by a Boone County, West 
Virginia, television reporter in September 2012 succinctly 
captures the plight of America's coal communities. Over the 
past five years, as the nation has struggled to emerge from the 
great recession, we have witnessed an onslaught of EPA rules 
and proposals that have significantly targeted the nation's 
energy and manufacturing sectors--the vitality of which is 
essential for putting this nation back on a path to long-term 
prosperity.
    We have conducted a number of hearings looking closely at 
the regulatory proposals and what they add up to in terms of 
compliance costs, and ultimately the prospects for people to 
have access to the affordable energy and the goods and services 
they rely upon.
    Nowhere have we seen the risks to prosperity more clearly 
than in the continued accumulation of regulations facing the 
coal sector of our economy--and our coal communities have 
suffered greatly.
    Today we will hear important testimony that will provide 
the perspective of the communities that help provide Americans 
the benefits of this abundant resource and the electricity it 
produces.
    The views of the local officials and workers provide a 
testament to the importance of coal, as a source of good, 
meaningful work, and as a support for the quality of life that 
all communities around the nation strive for. But the testimony 
also paints a troubling picture about the real damage that 
occurs when plants shutter, mines close, and people lose their 
jobs.
    It shouldn't have to be this way. I've been calling 
attention in recent months to the urgent need for ensuring this 
nation can embrace its energy abundance. This requires building 
the infrastructure and producing the fuels that provide power 
for our homes and for our commerce and manufacturing. This is 
only possible with a regulatory structure that encourages 
production of our diverse and abundant natural resources, 
including coal.
    A great irony is that coal has done so much to ensure the 
affordable, reliable power for the majority of Americans for 
multiple generations--it has been a core fuel behind the great 
accomplishments of our manufacturing industry. And to a point 
underscored by the testimony today, coal has done much to lift 
so many out of poverty in this nation. Today's hearing should 
remind us these accomplishments are at risk.
    Coal should continue to provide this nation its tremendous 
benefits. It is a critical and important part of this nation's 
future and a vital source of energy and jobs for millions of 
people in communities around the nation. Our work on this 
committee, through oversight of EPA and through our legislative 
initiatives, will help to make that happen. We are a nation of 
opportunity, and while others want to ban the use of coal, we 
will keep fighting to ensure coal remains an important part of 
our open, ``all of the above'' energy plan. I thank the 
witnesses for reminding us why this work is so important.

                                #  #  #

OPENING STATEMENT OF HON. H. MORGAN GRIFFITH, A REPRESENTATIVE 
         IN CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Griffith. Thank you, Mr. Chairman. I appreciate the 
opportunity to have a minute for an opening statement.
    I represent deep southwest Virginia, which is also the 
coal-producing region of the Commonwealth, and I can tell you 
that we are going to hear some great stories today and we are 
going to find out what is going on from people on the ground, 
but every time I am in the area, not here in D.C., I see new 
mom-and-pop businesses that have closed down because of this 
war on coal. I see what is happening out there day in and day 
out. I pick up the newspapers and read reports about different 
manufacturing facilities, not just the coal mines, but 
manufacturing facilities in the district that are laying people 
off or shutting down. It is devastating what is happening, and 
it is not just the price of the natural gas, because they 
fluctuate, and a lot of businesses over the years have said we 
know the prices fluctuate but we are going to stick with coal 
because long term it makes sense for us, but now with this 
regulatory environment in Washington, they are saying we can't 
do that because we know that even if we comply with today's 
regulations, the EPA and this Administration right around the 
corner will have another set of regulations that impact us.
    So we are bankrupting not only the power companies, as the 
President said that he would do, but we are bankrupting the 
mom-and-pop businesses. We are bankrupting car dealerships. We 
are bankrupting restaurants. We are bankrupting mom-and-pop 
businesses all over this country for little gain in the 
environment, and what we need to do is, we need to make sure 
that the science leads us on the regulations instead of the 
regulations forcing people out of business because they don't 
have time to wait for the science to catch up with the 
regulations.
    I know that for some they are incredulous when you hear 
things like that but chemical looping, all kinds of things are 
out there but we can't have the science that people are 
experimenting with come to fruition in time to meet the EPA's 
current regulations. And with that, Mr. Chairman, I yield back.
    Mr. Murphy. The gentleman yields back. With that, I now 
recognize for 5 minutes for an opening statement the gentleman 
from California, Mr. Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman. It is ironic: Today is 
the 1-year anniversary of Hurricane Sandy, a terrible tragedy. 
Rather than pay any attention to that landmark, we are talking 
about EPA's supposed regulatory threat to coal communities.
    We should be talking about the costs of inaction. Hurricane 
Sandy battered the Mid-Atlantic and the Northeast, killing 
hundreds and inflicting billions of dollars in damages. And our 
taxpayers all across the country helped to pay for that. We 
have had wildfires raging across the West. Floods decimated 
communities in Colorado. Every week you can find historic, 
record-setting climate events that are catastrophic.
    Now, we have in the audience several people who survived 
Hurricane Sandy, and I am glad they are here. Their stories are 
a vivid reminder of the fact that we should be talking about 
how extreme weather events like these are becoming more and 
more common because of climate change caused by our failure to 
reduce carbon pollution.
    I have written almost 30 letters to Chairman Upton and the 
Republican leadership of this Committee and I said we ought to 
have a hearing on the science. We ought to bring in the leading 
scientists to talk about the science that would lead to good 
regulation. Well, we have had a refusal to even hold one 
hearing with the scientists. Instead, as the threat from 
climate change becomes more and more dire, and the scientific 
consensus of the threat becomes even clearer, we are having 
another hearing focused on the alleged war on coal.
    Now, the primary threat to coal is not EPA's mythical war 
against coal; it is cheap natural gas that is being used as a 
substitute. It is more affordable, as is renewable energy, and 
it has reduced coal's market share for electricity generation. 
This isn't something the government did. This is something that 
the market dictated.
    Now, I know that many of you are here from the coal 
industry. Let me tell you, I have been in Congress for a long 
time. When we tried to deal with the acid rain problem, I 
suggested everybody in the country pay a fee to help pay for 
the scrubbers to stop the acidity that was going up to the 
northeast and Canada. And you know what we were told? Forget 
it; there is no problem. And when President George H.W. Bush 
signed the law, we required the reduction to be made in the 
cheapest possible way. And what did they did is they switched 
to low-sulfur coal and destroyed the high-sulfur coal industry.
    In 2009, we proposed giving the coal industry billions to 
develop coal technology that would remove this problem, and 
instead, we were told that there is no such problem. We have 
had many hearings on this issue. We all represent different 
parts of the country. We need to hear from everybody.
    And I want to yield the balance of my time, plus some, to 
Mr. Doyle.
    Mr. Doyle. Thank you. I appreciate you yielding.
    I agree, this is an important topic and we need to explore 
it, and as a representative from Pittsburgh, I know firsthand 
the devastating effects of the decline in the coal industry. 
But if we want to accurately examine this issue, which I 
believe we should, then we need to look at the facts, not just 
point fingers at an easy target.
    And for starters, I would like to remind my colleagues of a 
little bit of Congressional history. During this hearing, my 
colleagues on the other side of the aisle are going to blame 
the Obama Administration's air pollution regulations that have 
gone into effect over the last 5 years. The only problem with 
that is that many of these regulations were begun in the 1990s 
and the 2000s, not under this Administration.
    So what has this Administration actually done that impacts 
the future of coal? Well, since the beginning of this 
Administration, the Department of Energy has invested around $6 
billion to develop clean coal communities: capture, 
utilization, and storage. In fact, one of the first votes 
during the Obama Administration on the stimulus package 
included $3.4 billion for carbon capture and sequestration. You 
know how many Republicans voted for that? Zero. Later that same 
year, this committee worked tirelessly to put together a 
comprehensive energy strategy, which included multiple 
provisions to further development of CCS technology to take the 
burden away from the coal industry and the electric utility 
industry. That bill received eight Republican votes, only one 
from this committee.
    So I just want to remind my colleagues today that while 
they are throwing the Obama EPA under the bus, this 
Administration has given us multiple opportunities to support 
the coal industry, and we ought to stop the political drama and 
start working together to retain this industry and our country.
    Mr. Murphy. Thank you. The gentleman's time is expired.
    I would now like to introduce the witnesses for today's 
hearing. Our first witness is Judge Albey Brock. He is the 
Judge/Executive for Bell County, Kentucky, which is located in 
the southeastern corner of the State. He has been the Judge/
Executive for Bell County since 2007.
    Our second witness is Raymond Ventrone. He has been the 
Business Manager for Boilermakers Local 154 since 1996. Local 
154 encompasses Pennsylvania, Ohio, and West Virginia.
    Our third witness is Daniel Weiss, who is a Senior Fellow 
and the Director of Climate Strategy at the Center for American 
Progress in Washington, D.C., where he leads the center's Clean 
Energy and Climate Advocacy Campaign.
    Our fourth witness is Mr. Roger Horton, a miner by trade. 
He is the Founder of Citizens for Coal, which is a nonprofit 
organization dedicated to helping maintain the vitality and 
productivity of the coal industry in West Virginia.
    Next, we have Olen Lund. He is a former County Commissioner 
for Delta County, Colorado, located in western Colorado. In 
this capacity, his responsibilities include the appropriations 
and budget for Delta County.
    Our sixth witness is Mayor John Fetterman, the Mayor of 
Braddock, Pennsylvania, a town 10 miles north of Pittsburgh, an 
advocate for revitalizing the town by creating youth-oriented 
programs, attracting artists and pursuing green urban renewal 
and economic development.
    Our final witness is John Pippy. He is the Chief Executive 
Officer of the Pennsylvania Coal Alliance, which represents the 
interests of over 250 member companies and 41,500 workers in 
the coal industry. He also served 16 years in the Pennsylvania 
General Assembly and in the Pennsylvania State Senate. He is an 
Iraq war veteran and a graduate of West Point.
    I will now swear in the witnesses. You are all aware that 
the committee is holding an investigative hearing, and when 
doing so has the practice of taking testimony under oath. Do 
any of you object to testifying under oath? Seeing no one 
object to that, the chair then advises you that under the rules 
of the House and the rules of the committee, you are entitled 
to be advised by counsel. Does anyone desire to be advised by 
counsel during your testimony today? And no one has asked to be 
advised by counsel. In that case, would you all please rise and 
raise your right hand and I will swear you in.
    [Witnesses sworn.]
    Mr. Murphy. All witnesses have answered affirmatively. You 
are now under oath and subject to the penalties set forth in 
Title XVIII, Section 1001 of the United States Code. You may 
now each give a 5-minute summary of your written statement. We 
will start with Mr. Brock.

    TESTIMONY OF ALBEY BROCK, BELL COUNTY JUDGE/EXECUTIVE, 
  PINEVILLE, KENTUCKY; RAYMOND C. VENTRONE, BUSINESS MANAGER, 
  BOILERMAKERS LOCAL 154, PITTSBURGH, PENNSYLVANIA; ROGER D. 
  HORTON, FOUNDER, CITIZENS FOR COAL, HOLDEN, WEST VIRGINIA; 
DANIEL WEISS, SENIOR FELLOW AND DIRECTOR OF CLIMATE, CENTER FOR 
AMERICAN PROGRESS; OLEN LUND, FORMER COUNTY COMMISSIONER; DELTA 
      COUNTY, COLORADO; JOHN FETTERMAN, MAYOR, BRADDOCK, 
    PENNSYLVANIA; AND JOHN PIPPY, CHIEF EXECUTIVE OFFICER, 
      PENNSYLVANIA COAL ALLIANCE, HARRISBURG, PENNSYLVANIA

                    TESTIMONY OF ALBEY BROCK

    Mr. Brock. Chairman Murphy, Ranking Member DeGette, members 
of the committee, thank you for having me here today.
    My name is Albey Brock, I am the Bell County Judge/
Executive, and I appreciate this opportunity to provide 
testimony regarding the devastating impact EPA regulations are 
having on families and our economy in eastern Kentucky I 
proudly call home.
    My position has placed me on the front lines and in the 
trenches of a battle between the rapidly growing needs in my 
county as unemployment explodes coupled with shrinking budgets 
and revenues decrease. The duties of a County Judge Executive 
are similar to that of a county Mayor. I have the fiscal 
responsibility for operating all things related to county 
government--the sheriff's office, the jail, animal control, the 
road department, and ambulatory services to name a few.
    Today I am not here testifying as a bystander, but as an 
expert witness, a colleague reporting conditions from the field 
where I live and serve as County Judge.
    For the purpose of perspective, I want each of you to 
understand that eastern Kentucky's economy is more dependent 
upon coal than Detroit is upon the auto industry. In eastern 
Kentucky, we have lost 7,000 coal-mining jobs in less than 2 
years.
    Economists estimate that one coal-mining job supports three 
and a half other jobs in our economy. That means that beyond 
the 7,000 coal-mining jobs already lost, an additional 24,500 
jobs in our region will be affected. The average family size is 
three. That means 94,500 people, nearly 20 percent of our 
entire population in eastern Kentucky, has been directly 
impacted by coal industry job losses. The average wage of the 
7,000 lost coal jobs is just over $78,000 per year. When you 
multiply that wage by the 7,000 jobs lost, and then multiply 
the other 24,500 jobs lost by a conservative figure of 20,000, 
over $1 billion worth of earned wages will be removed from our 
region's economy. That deserves repeating: $1 billion a year.
    Many eastern Kentuckians are leaving their homes, their 
communities, and their families to work in other parts of the 
country. What does the future of our region hold for those of 
us that remain? Already we are seeing dramatic increases in 
childhood homelessness as families lose their homes. In some 
schools this fall, nearly 50 percent of the children had at 
least one unemployed parent as a result of coal layoffs.
    These are not young people fresh out of high school about 
to debate their career path. Every day in my job I am 
approached by proud, mature men and women with young families. 
Workers that feel the effects of time and toll on their bodies 
and have retirement just within their sights, they approach me 
almost daily. They both have made choices about their careers, 
worked hard, made sacrifices and now regardless of what some of 
you may think, because of recent decisions made by the EPA they 
face hardship and uncertainty.
    I have personally witnessed them selling their life's 
possessions in yard sales. Their credit is being damaged beyond 
repair as they are forced to send their kids to school for 
dependency on free lunch, food stamps, and other government 
programs in an attempt to get through another week. These are 
men and women that have believed that basic American promise. 
They believed that if they worked hard that they could do well 
enough to raise a family, own a home, and send their kids to 
college, and put a little away for retirement.
    Keeping that promise alive is what President Obama named as 
the defining issue of our time. I agree with him. Don't we all? 
Can't we find a way to undo what is being done? What is the 
future of eastern Kentucky and Appalachia?
    Knott County, neighboring Knott County, is representative 
of our region. In 1960, just before the War On Poverty was 
declared, 76.5 percent of Knott County citizens lived in 
poverty. By 2011, only 24.5 percent were living in poverty. Now 
that the coal workforce in Knott County has suddenly been 
reduced to half of what it was in 2011, poverty is on the rise 
again.
    I cannot imagine that the EPA calculated the human impact 
of their decisions that have so negatively impacted the coal 
industry in eastern Kentucky, put thousands of families and 
children at risk, and threatened decades of progress. But if 
they did, they callously disregarded that calculation and 
violated the most basic moral imperative of our government, 
which is to protect its people.
    Today, energy produced in America by coal is as clean as it 
has ever been and the technology is in place to make it even 
cleaner.
    I am a resident of Eastern Kentucky, my family is from 
eastern Kentucky, my friends and my constituents are in eastern 
Kentucky. I am asking you to please help stem the tide of 
unemployment and poverty by stopping the EPA regulations that 
so drastically impact the production of Appalachian coal. As my 
friend and fellow Bell Countian, Jimmy Rose, has reminded us 
all recently on the hit show America's Got Talent, coal does 
keep our lights on. I thank you, and I will be happy to 
entertain any questions.
    [The prepared statement of Mr. Brock follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Murphy. Thank you.
    I now recognized Mr. Ventrone for 5 minutes for your 
opening statement.

                TESTIMONY OF RAYMOND C. VENTRONE

    Mr. Ventrone. Mr. Chairman Murphy, committee members, my 
name is Raymond Ventrone, Business Manager, International 
Brotherhood of Boilermakers, Local Lodge 154 in Pittsburgh, 
Pennsylvania. I represent more than 2,000 boilermakers in 
western Pennsylvania, Ohio and West Virginia. My members are 
learning the hard way that the EPA's goal isn't clean air, it 
is eliminating coal and our way of life.
    The boilermakers have always been on the forefront of 
making the United States' coal-powered power plant fleet the 
cleanest in the world, and I am here to defend our interests.
    The boilermaker trade is vital to the construction 
industry. We are constantly expanding our manpower and 
recruitment resources to meet the needs of the industry we 
serve. We have built our reputation by dispatching trained, 
skilled, and productive craftsmen to every job site, regardless 
of its size.
    A boilermaker is a tradesperson who possesses a full range 
of knowledge and skills required to work in the construction 
industry. The duties of a boilermaker include welding, 
acetylene burning, asbestos abatement, rigging, scaffolding 
erection and dismantling, stack work, steel erection, tube 
rolling, impact machine operating, and such other items 
regarded as boilermaker journeyman work. The broad scope of the 
boilermaker trade includes construction maintenance work 
performed in the field and in industrial and commercial plants, 
such as power plants, retrofit coal-fired units, steel mills, 
electric power generation, thermal, nuclear, hydro plants, 
refineries, oil and chemical, gas turbines, gas processing 
plants, water treatment facilities, cement plants, fertilizer 
plants, breweries, pulp and paper mills, and many other 
industrial and commercial facilities.
    The International Brotherhood of Boilermakers has long been 
a proponent of sensible legislation and regulatory action. 
However, the Environmental Protection Agency recently proposed 
rule restricting carbon emissions from new power plants appears 
to be a calculated move to ensure that coal will no longer be a 
part of that strategy by setting impossible CO<INF>2</INF> 
limits for new fossil-fueled plants. Effectively, the EPA's New 
Source regulations will end future coal-fired power plant 
construction, despite enormous progress that has been made in 
recent years with advanced emission-limiting technologies.
    Just 3 years ago, hundreds of construction workers and 
boilermakers from Local 154 installed state-of-the-art 
pollution control equipment on a 1,700-megawatt coal-fired 
power plant. More than a half a billion dollars was invested in 
this plant, proving that coal and clean air were not mutually 
exclusive. However, despite having invested a half billion 
dollars to upgrade the power plant, two weeks ago marked its 
permanent closure because the plant owner cited the new EPA 
regulations as being too costly to keep the electricity-
generating facility operational.
    Now, those breakthrough technological upgrades approved by 
the Environmental Protection Agency only 3 years ago have been 
deemed insufficient by the very same agency by virtue of new 
regulations created without a vote in Congress or input from 
the public. These new regulations forced the shutdown of the 
Hatfield's Ferry Power Plant, Masontown, Pennsylvania, and 
Mitchell Power Plant in New Eagle, Pennsylvania, putting 
hundreds of utility workers and boilermakers out of work.
    Typically, 154 manpower is dispatched to the Hatfield Ferry 
Power Plant in Masontown, Pennsylvania, every spring and fall 
for maintenance outage work for 6 days a week for an 
approximate 15-week duration with manpower demand of 400 
boilermakers. Consequently, as a direct result of the shutdown 
at the Hatfield Ferry Power Station, roughly 360,000 
Boilermaker Local 154 man-hours will be lost every spring and 
fall.
    Critics of coal malign the thousands of boilermakers, mine 
workers, and hardworking men and women who earn an honest 
living in our region from coal. They insult us, calling us 
polluter, murderers. Pittsburgh press editorials refer to us as 
coal barons and have made outrageous claims about our 
livelihood, attacking our integrity, and ignoring the 
tremendous environmental gains made by coal. In the last three 
decades, coal usage has tripled but pollutants like sulfur 
dioxide have fallen by 56 percent.
    As stated in the New York Times by Elizabeth Muller, 
Executive Director of the Climate Research Group, China's 
greenhouse gas emissions are twice those of the United States 
and are growing at 8 percent to 10 percent per year. By 2020, 
China will emit greenhouse gases at four times the rate of the 
United States, and even if America's emissions were to suddenly 
disappear, world emissions would be back at the same level 
within 4 years as a result of China's growth alone.
    Clearly, the one-sided reduction of the American coal 
industry will not solve global change, but will shut down 
existing investment in new research that holds the key to huge 
reductions in CO<INF>2</INF> emissions from the coal-fired 
plants while the rest of the world is free to continue to 
expand the use of this reliable and economic energy source that 
has fueled our economy for more than a century.
    The skeptics in this debate are those who ignore that coal 
is used cleanly. The deniers are those who won't acknowledge 
the true social cost of the EPA's anti-coal agenda and the 
hundreds of southwestern Pennsylvania families who are losing 
their paychecks. We can have clean air and keep coal as a vital 
part of our economy, but we can't do it if the EPA and their 
allies are allowed to continue waging a devastating war against 
our jobs.
    On behalf of the boilermaker construction industry, I am 
calling upon Congress to come together to amend the EPA 
regulation that has blocked future coal-fired power plants 
construction and has a devastating direct impact on our jobs, 
our future and our union.
    [The prepared statement of Mr. Ventrone follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Murphy. Thank you.
    Mr. Horton, you are recognized for 5 minutes, and I ask 
everyone to please try and keep within their time. Go ahead, 
Mr. Horton.

                  TESTIMONY OF ROGER D. HORTON

    Mr. Horton. Thank you very much for the opportunity to 
speak here today. My name is Roger Horton. I am now a retired 
coal miner. I am a member of the United Mine Workers of America 
and president of Citizens for Coal, a group I formed 5 years 
ago to provide a voice for the working men and women of the 
coal industry and their families. I would like to thank each of 
you for the opportunity to talk with you today and share with 
you what is happening in communities across the Appalachian 
coal fields.
    Today's hearing is intended to investigate the damage being 
done to the coal industry by the Obama EPA and their war on 
coal. Let me say bluntly, there is a war on coal. I have seen 
it and lived it every day for the past 5 years. Over the past 
year alone, West Virginia has lost more than 3,500 direct coal-
mining jobs and approximately 10,000 more indirect jobs. Using 
the average wage of coal mining and coal support jobs as the 
standard, that means that our state has lost an estimated $924 
million in wages. That is right, almost a billion ripped from 
the economy in just the past year.
    When you look across the Appalachian coalfields, more than 
10,000 coal miners and another 50,000 support workers and 
people whose jobs depend on coal mining are now unemployed 
across the coal fields of West Virginia, western Virginia and 
Kentucky. These people are unemployed today for one primary 
reason: the anti-coal policies of this Administration.
    While it is true that part of the problem in the short term 
is the artificially and unsustainable low price of natural gas, 
this Administration and the EPA have made it next to impossible 
to use coal as a fuel for electric generation or even to mine 
it in the first place. These factors have led many utility 
companies to take steps to close older coal-fired power plants, 
and it appears likely if the policies continue into the future, 
even newer coal plants will begin closing. Meanwhile, it is 
almost impossible to get the permits necessary to mine steam 
coal, which has historically accounted for approximately 60 
percent of the area's production.
    The result of all this is a steep decline in production 
from 168 million tons in 2008 to just 110 million tons in 2012 
in West Virginia, and an even sharper decline in Kentucky. 
Employment has fallen just as steeply, with seemingly weekly 
announcements of another mine closing taking hundreds more jobs 
with it.
    Yet the EPA, the White House, and some of their friends in 
the media claim there is no war on coal, but even Obama's 
Science Advisor Daniel Schrag has admitted this war is being 
waged. He recently said politically, the White House is 
hesitant to say they are having a war on coal. On the other 
hand, a war on coal is exactly what is needed. Now you can make 
the claim, as some do, that other factors have hurt coal, and, 
yes, that is true, but the bottom line is that the Obama 
Administration has single-handedly made it nearly impossible to 
get a permit to mine coal, forced the closure of hundreds of 
coal-fired power plants as well as now setting the stage for 
the closure of hundreds more over the next few years, and now 
they are trying to make it impossible to export our coal to 
countries who do not understand the value of cheap, affordable 
energy. Obama, Schrag and others are determined to destroy the 
coal industry and have been since Obama took office in January 
2009.
    Even before the election, Obama said plainly and simply 
that he would put in place regulations that would bankrupt 
anyone wanting to build a coal-fired power plant, and sadly 
that is a promise he has kept.
    Today, our electricity grid is strained to meet demand, 
with rolling blackouts imposed in rural areas of the PJM 
Connectors district as recently as 3 weeks ago. While these 
blackouts are couched as a voluntary demand response to meet 
temporary conditions, the reality is, no matter how you cut it, 
is that the grid was short of capacity and voluntary rolling 
blackouts were imposed to cut demand allowing the grid to avoid 
massive blackouts in urban areas.
    I believe it is vital that we keep our electric generation 
grid nimble and able to readily switch between fuels, including 
coal, natural gas, oil and renewables. I remember clearly 5 
years ago, before the beginning of the great recession when our 
economy and the world's economy was humming along, we were 
screaming out for every ton of coal, every gallon of oil, every 
cubic foot of natural gas and every other source of energy we 
could find. Prices of all forms of energy were going out the 
roof because supply couldn't keep up with demand.
    Hopefully, we will find our way out of the current economic 
downturn and restore our economy and that of the world to 
something approaching normal and when we do we will once again 
find our economy needing all sources of fuel. If we retire 
coal-fired capacity and essentially shut the door to it in the 
future, we are setting the stage for a major inflationary 
spiral in our energy costs and with it the downstream costs of 
every other good in our economy. We need to protect our coal-
fired capacity in order to provide for the widest possible fuel 
choice down the road.
    Just a few weeks ago, a group of local Democratics leaders 
from my State went to Washington to try to discuss the issues 
with the EPA. They came away believing it might be a new start 
but those deals fell to the floor this past month when it 
became clear the EPA would not announce the new regulations 
that would effectively end the use of coal for electric 
generation. It is clear that this Administration and the 
national Democratic Party care nothing for the hardworking men 
and women who mine coal for a living.
    Sitting in the Senate is a basket of bills, already passed 
by the House of Representatives, that would effectively end the 
Obama war on coal. However, the bills are being stonewalled by 
the Obama Administration and its lapdog Senate President Harry 
Reid.
    Mr. Murphy. The gentleman's time is expired. We need you to 
wrap up.
    Mr. Horton. In closing, I simply observe that the President 
speaks a lot about economic justice and hope and promise. I 
would like to use this hearing to directly ask the President, 
where is the justice for West Virginia and Appalachia? Where is 
the hope and justice for our coal-mining families? There are 
few other career options available for many of our miners, and 
by his actions, this President is effectively condemning them 
to lives of poverty and despair. Again, I ask where is the 
justice? Why are our families less important to you than 
others? Why don't we matter to you, Mr. President? Please, let 
us work and power America.
    [The prepared statement of Mr. Horton follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Murphy. The gentleman's time is expired. We are going 
to try and see how fast we can get to the next couple 
witnesses, depending on how much time. They called a vote. We 
have 11 minutes left to get to the vote, so Mr. Weiss.

                   TESTIMONY OF DANIEL WEISS

    Mr. Weiss. Thank you, Chairman Murphy, Ranking Member 
DeGette and members of the subcommittee. Thanks for the 
opportunity to testify on this important topic.
    The Center for American Progress has great respect for the 
sacrifices that coal miners and their families have made for 
this Nation. They face working underground with the threat of 
cave-ins, explosions and fires, all while breathing in toxic 
pollution. Miners and their families have made genuine 
sacrifices and deserve real solutions to the economic 
challenges they face today, not the false hopes based on 
unsuccessful efforts to block essential public health 
protections.
    The economic challenges of the coal industry are due to the 
following factors. Productivity has increased, allowing far 
fewer miners to produce more coal. There were 700,000 miners in 
1923 while there are only 89,000 today. Each miner produces 15 
times more coal compared to 90 years ago. Coal's 
competitiveness for electricity generation is declining with 
the advent of cleaner, less expensive power. Natural gas is 
only one-third the price it sold for in 2008. Wind and solar 
electricity has become more cost-competitive without the 
pollution coal produces. This price competition led to the 
announced retirement of aging, dirty, and often inefficient 
coal-fired power plants. The plants scheduled to close in 
Colorado, Kentucky, Pennsylvania and West Virginia were built 
an average of more than 50 years ago.
    Coal's impact on public health has been widely recognized 
as hazardous. For instance, an American Lung Association study 
estimates that soot pollution from coal-fired power plants 
leads to 13,000 premature deaths annually. Pittsburgh and 
Harrisburg have the 8th and 19th most soot pollution in the 
United States. A Harvard Medical School study concluded that 
``the health damages conservatively doubles to triples the 
price of electricity from coal.''
    On the first anniversary of Superstorm Sandy, we must 
acknowledge the growing human and economic costs from climate 
change related to extreme weather. A Center for American 
Progress analysis estimates that federal taxpayers spent $136 
billion on climate-related federal disaster recovery efforts 
over the past 3 years. Coal-fired power plants are the largest 
source of domestic climate pollution. Coal-fired electricity is 
only cheap if one ignores the health and economic costs.
    There is a positive economic return on pollution rules and 
fewer job losses than predicted from them. The EPA estimates 
that for every dollar spent reducing mercury and toxic 
pollution from coal-fired power plants, it will yield $3 to $9 
in health benefits, a return on investment that would make 
Donald Trump proud.
    EPA found that its predictions of significant mining losses 
under the acid rain program of the Clean Air Act of 1990 did 
not occur. In 2001, EPA predicted there would only be 50,000 
miners by 2010. In fact, there were 89,000 that year. Advances 
in technology, market prices and health factors have increased 
the risk and price of using coal. These trends are expected to 
continue, requiring Congress to continue to help families and 
communities transition to sustainable jobs.
    We would respectfully suggest this subcommittee consider 
two specific actions to increase opportunity for effective 
people and communities. First, reduce investment uncertainty 
created by regulatory confusion. By allowing EPA to proceed 
with commonsense rules to protect public health and the 
climate, companies will have the certainty they need to make 
pollution control investments, strategically plan for new 
business opportunities and cleaner energy technologies, and 
develop new employment opportunities. The draft bill by 
Representative Whitfield and Senator Manchin announced 
yesterday would prolong uncertainty, stalling investments while 
health and economic damages continue to mount. Second, develop 
a comprehensive community assistance strategy in order to help 
identify pathways for a prosperous future for affected families 
and communities. One important change would allow early vesting 
in retirement and pension plans for coal workers near 
retirement age. For younger workers, education and job training 
assistance should be offered as it was under the Clean Air Act 
of 1990. For those interested in developing carbon capture and 
storage technology to burn coal without carbon, the Government 
Accounting Office says the number one way to make that 
technology a reality is to have a limit on carbon pollution.
    We would welcome the opportunity to work with you to 
develop these and other ideas, and we hope that you will soon 
have a hearing on the cost of inaction on climate change on 
public health and on taxpayers. Thank you.
    [The prepared statement of Mr. Weiss follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
        
    Mr. Murphy. I think at this point we are going to take a 
quick break so members can get over and vote and come right 
back, so we will be as quick as possible. Don't go anywhere, 
please. We will be back probably within about 10 minutes. Thank 
you.
    [Recess.]
    Mr. Murphy. We will commence our hearing here, and now turn 
to Mr. Lund, recognized for 5 minutes. Go ahead.

                     TESTIMONY OF OLEN LUND

    Mr. Lund. Thank you. Chairman Murphy and committee members, 
thank you for the opportunity to speak to you today. I went 
through my notes here and marked a lot of things off to try and 
be short and quick but you have already gone and done your 
thing now, so I can wander on.
    My name is Olen Lund. I am a former Delta County 
Commissioner, so I understand well the impacts that coal mining 
have on our local economy. For explanation, Delta County is a 
midsized county in western Colorado with the primary industries 
of agriculture and coal. I guess it is important to note at 
this point that neither I nor any member of my family has ever 
been directly employed by a coal mine. The nearest thing is 
that when I was in high school, I did some work for an 
environmental research firm, did some surface environmental air 
quality evaluation stuff for a new mine that was being set up.
    I am here basically to speak on behalf of my neighbors and 
friends. I want to also note that nobody is paying my way. I 
came here, and it is a long ways, as Representative DeGette 
will vouch. I came here on my own. A lot of people were excited 
literally that I am here and testify for them.
    What I want to talk about or try to convey is that there is 
more than just impact on jobs, there is more than impact on 
families but really there are impacts on the communities. That 
is what I want to talk about. Coal mines, there are three coal 
mines basically. Two of them are in a neighboring county but 
because of the topography, nearly all of the workers live in 
Delta County. All of the coal is shipped out by railroad that 
comes through Delta County, so really, Delta County is the 
location where the most impact from the coal mines occurs. The 
one coal mine that is in Delta County is the number one 
property taxpayer in the county. The interesting thing to note 
is, after that, the next largest is the railroad company, Union 
Pacific Railroad Company, which has a spur that serves the coal 
mines. Although it is not exclusively dedicated to the mines, 
the vast majority of the freight that the railroad hauls is the 
coal produced by the mine. The next largest taxpayer is the 
rural electric co-op, the Delta Montrose Electric Association. 
So it permeates extensively. It permeates the income of the 
county. Somewhere between 900 and 1,000 people, which is almost 
10 percent of the workforce of Delta County, is employed by 
those three mines.
    Coal production is like any other business that employs 
people. There are questions, I guess, different numbers that 
are thrown out, but we figure those dollars turn over seven 
times within the community, giving the community its wealth. If 
you close the mine, or the mines, in this case, you not only 
lose the primary jobs of production, you also lose the jobs 
that support those primary jobs. In other words, you lose the 
banks, the grocery stores, the dry cleaners, car dealerships, 
the mechanics, parts stores, et cetera. In government services, 
also, you definitely lose clinics and hospitals. You even lose 
the gift shops. I had one person I talked to as I was talking 
to different ones about coming here and what I would say who 
told me of a gift shop that their family ran, and as long as 
the coal mines were working, they did well, but as soon as the 
coal mines faltered, they didn't have the income and the gift 
shop went out of business. That is the case with a lot of small 
businesses. I just picked out gift shop because typically you 
would think of that as more of a tourism-type business.
    As I mentioned earlier, I have talked to a lot of people in 
the past few days and asked them what I should share with you. 
Almost invariably I have been told that if the mines shut down, 
it would be devastating to the local society and then our 
society would dry up. I don't think that that is the most 
effective way to tell you just what the situation is. I see 
that I am getting low on time here so I won't go further. I 
have gotten written testimony to really explain how these 
things affect the community as a whole, not just those 
production jobs that are lost.
    In summary, I would like to certainly thank the committee 
for the opportunity to speak here and look forward to answering 
any questions that I can.
    [The prepared statement of Mr. Lund follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Murphy. Thank you, Mr. Lund.
    Mayor Fetterman, you are up, and I apologize for saying you 
are north of the city of Pittsburgh. You are southeast on the 
beautiful Monongahela River across from Kennywood. Thank you. 
You are recognized for 5 minutes.
    Mr. Fetterman. What was that?
    Mr. Murphy. I was just saying when I introduced you before, 
I had mistakenly said north. I know that you are not north of 
the city of Pittsburgh.

                  TESTIMONY OF JOHN FETTERMAN

    Mr. Fetterman. That is OK. Chairman Murphy and everyone, 
thank you for the opportunity to share my thoughts today. My 
name is John Fetterman and I am the Mayor of Braddock, 
Pennsylvania.
    Braddock is a small town on the Monongahela River where 
both the steel industry and Andrew Carnegie got their start 
with the founding of the Edgar Thompson steel plant in 1875. 
Braddock is hardcore blue collar and the quintessential mill 
town. So much so that Hollywood recently filmed a $40 million 
movie about life in a mill town starring Christian Bale, Woody 
Harrelson and Forrest Whitaker that is being released in 
December.
    During the second half of last century, my community 
sustained a 90 percent population loss and is perhaps the 
poorest community in the Commonwealth. There is no one 
testifying today, or any day, before this body that can 
outflank Braddock in terms of economic hardships, the 
importance of good jobs, and the lessons of the free market
    Many of the people speaking today are paid to present you 
with what I respectfully believe is a false choice: that we as 
a society must choose between a healthy environment or healthy 
industry.
    As the parents of two children under the age of 5 and a 
wife that is expecting a third, my wife and I are grateful the 
last functioning steel mill in the entire region is in our 
community, grateful for the jobs it provides, grateful for the 
tax revenue it provides, grateful for the sense of pride it 
instills. However, as parents, we are also grateful for the 
appropriate environmental controls, safeguards and protections 
that the EPA and other government regulations provide.
    You see, my family and I live directly across the street 
from the Edgar Thompson steel mill, which runs 24/7 365 days a 
year. My family and I are the living embodiment of healthy 
coexistence of regulation and industry. Yet another example----
    Mr. Murphy. Is your microphone not working? Mr. Pippy, if 
you could put your microphone towards him too, that might help.
    Mr. Fetterman. Coke, of course, is a product of coal. 
However, it seems that the primary reason--and thankfully, we 
do not have to choose between jobs and our health, and I don't 
believe anyone here today has to do the same, especially since 
the primary reason we believe that the coal industry is facing 
challenges are due to some of the fundamental free market 
forces that favor natural gas.
    However, do not take this small town mayor's word for it. A 
much more informed spokesman of it is the president of Consol 
Energy, the largest producer of coal in the eastern United 
States, and on Monday, Consol sold five of their largest coal 
mines to a private buyer. The company, Consol, based in 
Pittsburgh said on a conference call with reporters that five 
mines being sold to the privately held Murray Energy in the 
transaction are worth $3.5 billion to $4.4 billion, and they 
are a ``very profitable business and a very stable business.'' 
Furthermore, from the New York Times, Consol is planning to 
increase natural gas production 30 percent a year for the next 
3 years, and in the next 10 years will invest $14 billion in 
developing Marcellus shale in West Virginia and nearly $8 
billion in Marcellus shale in Pennsylvania along with, of 
course, retaining $2.5 billion in Pennsylvania coal mines that 
it is retaining. Thus, according to Consol, the largest 
producer of coal in the eastern United States, not only are 
they drastically ramping up their investment in natural gas to 
the tune of $22 billion, their current book of business is ``a 
very profitable, very stable,'' readily found a buyer and are 
retaining billions in coal holdings in my home State of 
Pennsylvania.
    Very respectfully, this does not sound like an industry 
under siege. Instead, it sounds like an industry responding to 
the free market, something traditionally considered a virtue, 
particularly for our friends across the aisle. Increasing our 
domestic energy production and moving towards energy 
independence is something we as Americans can all be proud of. 
Government should not be in the business of picking industry 
winners and losers; that is the job of the free market. 
Government should be in the business of protecting its citizens 
with sensible environmental legislation, including regulating 
carbon.
    Thank you.
    [The prepared statement of Mr. Fetterman follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you.
    Mr. Pippy, you are recognized for 5 minutes.

                    TESTIMONY OF JOHN PIPPY

    Mr. Pippy. Thank you, Chairman Murphy, Ranking Member 
DeGette, members of this House Subcommittee. It is a privilege 
to be here with you today. As you heard, my name is John Pippy. 
I have the privilege of being the CEO of the Pennsylvania Coal 
Alliance. I will give you a little snapshot of Pennsylvania 
coal. We represent the bituminous side. Pennsylvania ranks 
fourth when it comes to coal mining in the country. We have 
over 41,000 jobs, a $7.5 billion impact, and we have a 
significant role in the electricity production in our 
Commonwealth, over 42 percent. A lot of people talk about jobs 
and living wages and the economy. Well, a coal miner in 
Pennsylvania averages about $75,000 a year. That is $30,000 
more than your average other job in the Commonwealth, which is 
$45,000.
    We are very proud of what we have in Pennsylvania. We have 
a very robust natural gas industry. Many of the members of my 
coal alliance actually have holdings on that side because of 
Marcellus shale is underneath the bituminous shale or the 
bituminous coal in western Pennsylvania, so there is a synergy 
there, and there are market forces. We don't shy away from 
that, and we would actually tell you that by 2017, the 
Department of Environmental Protection in Pennsylvania says 
that our CO<INF>2</INF> levels will be below our 2005 
CO<INF>2</INF> levels. That will be a 17 percent reduction. By 
the way, ironically, that is exactly what the President is 
asking for in his carbon reduction plan. So if you get out of 
our way, we could actually get it done with our market forces.
    One of the things we like to argue and talk about many 
times is that coal right now is suffering with three 
challenges. The first two are normal. One is the economy. No 
one is arguing that we are out of the recession yet, and that 
is having a tremendous impact on the metallurgical and the 
export markets but it is also having a tremendous impact in the 
energy usage side. So that is the market. Natural gas right now 
is at one of the lowest it has ever been, and no one is arguing 
again, although I would point to, 2010 natural gas was at about 
$2.50 something MCF. Last year it was about $3.50 MCF. Once it 
hits $4, you start dispatching coal. In 2013, coal has seen an 
increase of 8 percent in the United States over natural gas. 
But that is a market fluctuation. No one argues that. We expect 
it. We anticipate we can deal with it.
    The third part of what we are here to talk about today, 
which is the regulatory burden that the EPA in particular is 
putting on us, but most egregiously right now is the new 
standards that would limit CO<INF>2</INF> emissions to a level 
that is not reachable with current technology. Now, back in 
1992 when I was at West Point, I was the first class to 
graduate as an environmental engineer. It was an up-and-coming 
field. I believe in technology and it can help make the world a 
better place and help us deal with the legacies we have had in 
the past. However, we have to recognize what is occurring.
    My friends will say that natural gas is going to continue 
to be cheaper. That is just not true. Use your own numbers from 
the EIA. Right now they are anticipating this year will be 
about $4 MCF. By 2020 it will be over five, coal will still be 
under four. By 2030, it will be $8. By 2040, it will be $12 
MCF. In 2040, coal is predicted to be at $5. So you either want 
to have twice the cost of energy or we can have a balanced 
portfolio, which I would argue is in the best interest.
    Now, I was going to originally talk about Greene County in 
particular, but because of limited time, I will just address 
some of the challenges that we are facing and some of the 
comments that have been said. Greene County is our largest 
coal-producing county. They make about 85,000. You can read the 
testimony. Some have argued, we have people in the room today 
that we deserve to get involved with the climate change. I 
would argue 100 percent. As an environmental engineer, we need 
to have that debate. But when you have that debate, you have to 
tell the people the truth. You have to tell them that U.S. coal 
emissions are less than 3 percent of manmade emissions, which 
are less than 3 percent of total greenhouse gases, that if we 
completely eliminate CO<INF>2</INF> from our coal producing, we 
would have a minimal impact on the global greenhouse gas 
emission. And these are all numbers that aren't coming from the 
Coal Alliance. They are coming from your own government. So I 
would argue that if you care about global climate issues, we 
would be looking at a global solution. I am OK with the hand of 
the free market being engaged. That is normal. That is 
innovation. That is technology. That is what American is made 
of. What I am concerned about is the sledgehammer of government 
slamming us with a regulation that is not achievable with 
current technology. Please look at your own numbers and you 
will see that even they are predicting that we won't be able to 
get there until 2025 at the earliest. If we get there in 2025, 
give us a regulation in 2025, not right now.
    I appreciate the opportunity to testify, and thank you so 
much for your time.
    [The prepared statement of Mr. Pippy follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Murphy. Thank you, and I appreciate all the witnesses 
speaking here today. I am going to yield myself 5 minutes and 
we will go back and forth with some questions for everyone.
    Judge Brock, thank you for your testimony. Now, you are 
responsible for making sure that the county and all its 
services have the money to operate. Am I correct on that?
    Mr. Brock. Yes, sir, that's correct.
    Mr. Murphy. So could you tell us how have the coal layoffs 
you cite affected your budget?
    Mr. Brock. Well, a large majority of our budget comes back 
through coal severance tax, a tax charged on the per-ton 
rendered, and what we have seen over the course of the last 18 
months is up to 25 percent decrease in those revenues. 
Ultimately, it is going to have a negative impact on public 
safety because with the large number of folks that are 
unemployed, the tax revenue, just general tax revenues down, 
when that coal severance, which is affected by production, is 
down, it is going to affect how we fund our jails, our 
ambulance services, our animal control. It will lead to even 
more layoffs within government. So it is really--Congressman 
Waxman said that a hurricane had hit. I could say to him if he 
were here, we are facing an economic tsunami in southeastern 
Kentucky and throughout Appalachia as a result of this.
    Mr. Murphy. Now, you also witnessed homelessness. How does 
the county provide for the homeless now with declining budgets, 
and has that population grown?
    Mr. Brock. Fortunately, we supplement that. Some of the 
things that we fund are in whole, some are in part. We have 
local missions that have picked up the slack and assist us with 
our homeless shelters. We use coal severance funds as line 
items within the state budget to supplement those homeless 
shelters. Now, once that supplement is gone or diminished we 
will have it pretty bad as it applies to homeless.
    Mr. Murphy. Mr. Ventrone, you said you are the business 
manager for about 2,000 boilermakers. How much do boilermakers 
make on average? What is their annual income in general?
    Mr. Ventrone. About $75,000 a year during the good times.
    Mr. Murphy. During the good times. Mr. Weiss had talked 
about other training opportunities, perhaps they can get other 
jobs, et cetera. Do you have any comments on that and what that 
would mean to some of your boilermakers to start new careers, 
other training and move on to other things?
    Mr. Ventrone. Training for new jobs? At this point what 
kind of jobs? I mean, these guys have been boilermakers. That 
is all they know. I wouldn't even know where to send them for 
new jobs. These are great-paying jobs that are going by the 
wayside. That is all we have done all our lives. I mean, I have 
been at this for 40 years and I wouldn't even know where to 
send these guys. We chased the steel industry out of the 
country. We chased the auto industry out of the country. Now we 
are going to send the power industry out of the country. I just 
don't understand. We need to be put on an even playing field. 
We are selling our coal to China and India, and they are not 
held at the same standards yet we are going to shut down our 
coal-fired power plants and send all our jobs out of the 
country. I don't understand what we are thinking about.
    You know, this is my President. I voted for Obama. I went 
door to door and asked people to vote for this President. All I 
want is it to be put in the hands of Congress. I think that 
this is Congress' job to put a bill and let them debate what 
should go on here, not the EPA. I don't think the EPA should be 
setting the standards for what is going on right now. That is 
why I am here today.
    Mr. Murphy. I have about 1 minute left. I am going to ask 
each of you one question and I want you to make it extremely 
short like a 5-second sentence. In the past we had the Director 
of the EPA here. She said she did not look at the impact upon 
jobs of regulations. If each of you just had one thing you 
could say to her very briefly, what would it be.
    Mr. Brock. Shame on you.
    Mr. Murphy. Mr. Ventrone, what would you say to--with 
regard to looking at jobs and issue of EPA regulations, what 
would you say to her?
    Mr. Ventrone. Shame on you, that is a good one.
    Mr. Murphy. Mr. Horton, what would you say to her?
    Mr. Horton. It is unconscionable.
    Mr. Murphy. Mr. Weiss?
    Mr. Weiss. I would say work with the Congress to develop a 
plan to help people in the situations that we have been hearing 
today while we protect public health.
    Mr. Murphy. Thank you. Mr. Lund?
    Mr. Lund. I would say how can you not consider that. Isn't 
that what government's job is?
    Mr. Murphy. Mr. Fetterman?
    Mr. Fetterman. I would also agree that jobs are an 
important consideration.
    Mr. Murphy. And Mr. Pippy?
    Mr. Pippy. I would say you have to accept the reality of 
what is occurring in the world and make decisions based on 
that.
    Mr. Murphy. In the interest of time and moving forward, I 
am going to yield now to Ms. DeGette for 5 minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Mr. Weiss, coal's share of U.S. power generation has been 
in decline for years, long before the EPA regulations started 
to come into effect. Is that correct? Yes or no.
    Mr. Weiss. Yes, it is.
    Ms. DeGette. And can you tell us briefly about the market 
forces that have caused this to happen in our economy?
    Mr. Weiss. Well, the biggest thing is another American 
innovation, which is the development of hydraulic fracking 
which, although it needs a lot more environmental oversight, as 
I know that you are familiar with, has opened up the 
possibility of producing shale gas. We have got a huge increase 
in supply. The price has dropped. The Henry Hub price for 
natural gas was $2.75 yesterday.
    Ms. DeGette. Now, Mr. Pippy said that over time, though, 
that these economic factors won't continue and that in fact 
coal will become economically superior to natural gas. Do you 
agree with those statistics?
    Mr. Weiss. I believe that coal is not economically superior 
to natural gas and never will be until you incorporate the cost 
of the health care damage and global warming damage from 
burning coal into the cost of the coal.
    Ms. DeGette. Now, speaking of that, Mr. Weiss, natural gas 
also has advantages in terms of environmental impact. Can you 
explain very briefly what those advantages are?
    Mr. Weiss. Yes. Burning natural gas produces almost no 
mercury, almost no sulfur, less nitrogen oxide, almost no soot 
particles, which Mr. Pippy's town has the 18th worst amount of 
soot particles in the country and that can trigger asthma 
attacks and harm people who have heart conditions.
    Ms. DeGette. Well, but you know, somebody--I forget who, I 
think it was Mr. Pippy--I don't mean to pick on you, Mr. 
Pippy--has testified that the amount of pollution from coal is 
actually very small in this country. Do you agree with that?
    Mr. Weiss. No. Burning coal for electricity is a source of 
one-third of all the climate change pollution in the United 
States. I think the point that he was making is that it is such 
a small share of the worldwide emissions that why bother 
regulating it. But in fact, any single source is a small share. 
In fact, we need--the United States has already led on fuel 
economy standards. Now we need to lead on clean electricity. 
Then we can get other countries to follow and hopefully make 
the technologies they are going to use to----
    Ms. DeGette. So it can go around the world?
    Mr. Weiss. That is right.
    Ms. DeGette. Thank you. I yield the balance of my time to 
Mr. Doyle.
    Mr. Doyle. Thank you. I appreciate that.
    I don't sit on this particular subcommittee but I wanted to 
waive on to the committee today because this is an important 
issue, and we have three distinguished Pittsburghers on this 
panel. I have known Ray Ventrone a long time. He is a great 
labor leader in Pittsburgh. He fights for his workers, and Ray, 
believe me, we share your concerns. Our mayor, John Fetterman 
from Braddock, my dad worked at Edgar Thompson for 32 years and 
I grew up near that town, and John Pippy, also another good 
friend.
    Energy never used to be a partisan issue in this Congress. 
I have been here 19 years. It is not a Democrat or Republican 
issue. We need energy to power this country. And Ray, you said 
something that I agree 100 percent with. This should be 
Congress's responsibility to do this, and what is frustrating 
to a lot of members in my party is that we tried to do this 
comprehensively 2 years ago and we just couldn't get any 
support. We couldn't get bipartisan support to pass a bill that 
would help give coal a future. We dare not put all our eggs 
into the natural gas basket. I want to say that right now. That 
is a dangerous prescription for the future. We need the whole 
breadbasket. We need coal. We need natural gas. We need 
nuclear. We need renewables. We need them all. And if we become 
too dependent on any one source of energy, that is going to be 
very dangerous for our country. But for coal to have a future, 
we need to invest in the technologies that allow us to burn 
that coal cleaner.
    Just like in nuclear, we have got to solve the disposal 
problem. Nuclear emits no greenhouse gases but we have a debate 
over what to do with Yucca Mountain or how to dispose. These 
are technology questions, and what this Congress should be 
doing is a mission to the moon project on research on how to 
deal with this issue. Maybe the answer is at the front end of 
the coal before it goes into the furnace. We don't know because 
we have not made this important enough to put our best and 
brightest people on it.
    In the cap-and-trade bill, which we weren't able to get 
passed in Congress, that I sat on this committee and supported, 
we were going to have $10 billion allocated to do clean coal 
demonstration projects and technology to give coal a future in 
this country so that we could coexist environmentally and keep 
the jobs in the country. That is what I want to see this 
Congress start to do. But now we are in a sequester, and what 
that means is, is that the discretionary part of our budget 
that funds research is being greatly curtailed. So while we are 
in the sequester, the idea that we could generate the money or 
get the votes to spend the money to do this is very 
questionable.
    So I think what we need to do as a Congress is Democrats 
and Republicans need to work together and find the technology 
solutions that allow us to have this breadbasket of choices: 
coal, nuclear, natural gas, renewables, and that is in the best 
interest of this country and that is what people like myself 
and both parties ought to be about.
    Thank you, Mr. Chairman, for your courtesy.
    Mr. Murphy. Thank you. I now turn to the gentleman from 
Georgia, Mr. Gingrey, for 5 minutes.
    Mr. Gingrey. Mr. Chairman, thank you.
    I just want to make note, Mr. Weiss just a second ago 
mentioned the large amount of pollutants released into the air 
by burning coal. Well, none of the pollutants that he 
mentioned, to my knowledge, are what we would call greenhouse 
gases, and indeed, the coal industry in response to EPA rules 
and regulations under the Clean Air Act I think has done a 
great job of reducing these classical pollutants, sulfur 
dioxide, particulate matter, all these things. But what the EPA 
has done basically is, they keep moving the goalpost, and all 
of a sudden because of the Supreme Court allowing them to do 
that, greenhouse gases, which could result in global warming, 
are pollutants. You know, I am putting out a lot of 
CO<INF>2</INF> right now and I hope I am not making any of you 
sick. But that is what we are talking about here, and it is 
making it absolutely impossible for this industry.
    I want to thank Chairman Murphy for holding the hearing, 
educating members of the subcommittee on the impact of the 
Obama Administration's continued, and make no mistake about it, 
war on coal is what it is, is having on local communities, and 
we have heard that from several of our witnesses. I want to 
thank each of the witnesses here today for providing your 
unique perspective on how these looming regulations will harm 
your communities.
    Mr. Chairman, like many of the panelists, my home State of 
Georgia has been negatively impacted by these EPA regulations. 
Earlier this year, Georgia Power, the main subsidiary of the 
Southern Company, they serve 2.4 million customers in Georgia 
out of 10 million in almost every county of our State. They 
announced that they were closing 15 coal and two oil-fired 
plants as a result of these recent EPA regulations. This alone 
has significantly impacted almost 500 jobs. Since the EPA has 
announced these heightened regulations, 303 coal-fired units in 
33 States will be closing in addition to the potential increase 
in energy costs for these local communities, and it may take a 
few years, yes, when the price of natural gas goes back up. I 
would like to focus on the further economic impact that these 
plant closures will have on these communities. So therefore I 
am going to direct my questions to Mr. Brock and Mr. Lund, and 
I would like to go into further depth of how these EPA 
regulations have impacted your local economies.
    Given your roles, how have these regulations and plant 
closures impacted the local tax base with regard to sales and 
property taxes?
    Mr. Brock. Well, naturally, when you don't have any 
competition for the purchase of a home, that is going to have 
declining value on property valuations, and we are seeing that. 
Furthermore, we are seeing that those laid-off individuals, 
whether they be miners or someone that is involved in the 
support industry are having a hard time paying their property 
taxes which directly impacts the bottom line in the fact that 
they just can't do it. They have to make choices between, do we 
buy medicine and groceries or do we pay our property tax and I 
think if any of us were faced with those decisions, it would be 
a no brainer; we are not going to pay our property tax.
    Mr. Gingrey. Mr. Lund?
    Mr. Lund. I would echo the same sorts of things. I would 
point out that certainly the direct income from the mines is a 
very important thing to the economy but there is still that 
multiplier of seven there of the rest of the community and how 
the rest of the community survives when the coal mines are 
gone, how do those individuals pay their property taxes. That 
is also a very big concern in the country.
    Mr. Gingrey. In follow-up to both of you, we can all agree 
that these regulations have impacted the private sector. At the 
same time, through the loss of jobs in your local areas, what 
has been the subsequent impact on essential public services as 
a result of the reduced tax base? Mr. Lund, you start, and then 
Mr. Brock.
    Mr. Lund. The essential services, depending on what you 
call essential, I suppose, have had to decrease. I am no longer 
a commissioner. I was term-limited. I was not allowed to run 
again. But during my tenure as county commissioner basically 
our responsibility was finances for the country. There were a 
lot of things that we had to cut through that time, and really, 
we left things pretty thin, cut pretty thin, pretty spare when 
I left office last fall, and now that they are beginning to be 
closures of the mines, it basically is devastating as I said in 
my earlier summary.
    Mr. Gingrey. I am not going to go back to Mr. Brock, 
because in the last seconds I have got left, I want to make a 
comment.
    The federal government has this bad tendency of torching a 
village to kill a gnat, and I think that is the real problem 
here, and I yield back.
    Mr. Murphy. Thank you. The gentleman's time is expired. Now 
to Mr. Yarmuth. You are recognized for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    First of all, let me thank all the witnesses and 
particularly Judge Brock. It is good to see a fellow Kentuckian 
here, and I want to stress that I don't think there is anyone 
on either side of the aisle that doesn't have a great deal of 
sympathy for those miners and boilermakers and others who have 
lost their jobs for whatever reason, and I have spent a lot of 
time over the years, first as a journalist looking at the 
situation in Appalachia and particularly in Kentucky, and have 
enormous affection for that region and the people in it.
    When we are talking about EPA, we are talking about a 
variety of issues here and its effect on actually the burning 
of coal and in your particular case, Judge Brock, it is the 
mining of coal, and certainly there is a connection but it is a 
different kind of dynamic that is at work here because you are 
mining coal. People mine coal when there is a demand for coal 
and when the price is right, when they can sell it at a profit 
and keep people working. So if you look at the employment 
factors under the Obama Administration in coal mining, actually 
the coal mining from 2009 until 2013, the latest figures we 
have, is significantly higher than it was during the Bush 
Administration, and in fact, the period from 2011 to 2012, that 
2-year period, according to Mining Safety and Health 
Administration, was the highest employment in coal mining in 
the last 15 years. So if he is actually engaged in a war on 
coal as it affects coal miners, he is not doing a very good job 
of it because coal mining employment has actually improved.
    So my question to you is, for the sake of the question, if 
we stipulate the argument that coal mining has been at 
relatively high levels over the last 4 or 5 years, even though 
there are blips, there is no question about that, and I know 
there have been significant layoffs in the last few weeks in 
Kentucky, would you not accept the argument that there is a 
regional aspect to this and a geological aspect to it as well, 
that the nature of the mining operation has something to do 
with the economics of it, and that while in eastern Kentucky 
recently there have been a lot of jobs lost, in western 
Kentucky, there have been no jobs lost. In Wyoming, there have 
been no jobs lost. Employment has held relatively high levels 
there. So wouldn't that indicate that the EPA's actions are not 
necessarily the prime factor, even much of a significant 
factor, in coal-mining jobs?
    Mr. Brock. First, I certainly don't agree with that 
assessment. What I believe you--what you are trying to say is 
that it is OK to pick winners and losers, that we are going to 
have regulations that cause a coal-fired power plant to be shut 
down, that by necessity needed low-sulfur, low-ash coal that is 
mined in Appalachia. Those that are still operating, they are 
scrubbing their coal, so that is why you see the western 
Kentucky-Illinois basin----
    Mr. Yarmuth. Well, that is actually one of the points I 
made.
    Mr. Brock. But if that is allowed to continue, if you can 
continue that string, where are we going to be?
    Mr. Yarmuth. But my point----
    Mr. Brock. If we all move to western Kentucky, Appalachia 
will dry up.
    Mr. Yarmuth. My point is, as Mr. Doyle also said, back in 
2009 we knew that the EPA or Congress had to do something about 
carbon emissions and coal-fired plants. We knew that then. And 
yet coal-mining employment still increased from 2009, 2010, 
2011, 2012. So I think we need to look for other reasons than 
EPA regulations for the current situation with coal-mining 
employment.
    Mayor Fetterman, I just want to ask you one question. Your 
situation is not unlike Judge Brock's.
    Mr. Fetterman. Correct.
    Mr. Yarmuth. What innovative steps that you have used in 
terms of revitalizing the economy that might be applicable to 
Judge Brock and Bell County?
    Mr. Fetterman. I would just piggyback off my friend, 
Congressman Doyle's sentiments. I was closely involved with the 
Environmental Defense Fund to help pass cap-and-trade 
legislation, which again, I would point out is a conservative 
ideal in order to work towards removing carbon, and as 
Congressman Doyle pointed out, there were a lot of provisions 
for clean coal, and that is one of the reasons why--you know, 
it pains me to hear those power plants closing. I know better 
than anybody perhaps what is like to lose that amount of jobs, 
but we need a comprehensive solution and we need a bipartisan 
solution, and again, I thought Congressman Doyle hit the nail, 
you know, on the head there. It is time for both sides to work 
closer together.
    Mr. Yarmuth. Thank you. I yield back, Mr. Chairman.
    Mr. Murphy. Mr. Harper for 5 minutes, and we are really 
pressed for time here.
    Mr. Harper. Thank you, Mr. Chairman. I want to thank each 
of you for being here, and I think it is important to realize 
where we were when the President was sworn in in January of 
2009, that gas prices, the average for a gallon of gas was 
$1.84. I can't remember it being under $2 a gallon but history 
tells us that it was, and so this is not just about coal. This 
is a fundamental war on energy by this Administration. Coal is 
just one of the components of that. You see what we tried to do 
with the Keystone XL pipeline and the inability to get 
something as basic as that done, even when the Secretary of 
State's department has determined the environmental impact 
studies are OK, that there is no reason not to do that. You see 
what we have tried to do on nuclear energy with the basically 
removing Yucca Mountain as a place for the storage of spent 
nuclear fuel, and you see particularly what is happening to 
many of you in the room as we look at the impact on coal, and 
coal is an important part of our overall energy portfolio. It 
is important for what we do for our citizenry. You have to have 
affordable, cheap fuel sources in this country. We are one of 
the few countries that won't use all of their own natural 
resources. This is something that we can do. We can do it in an 
environmentally safe manner. We need to try to that and, you 
know, improve where you can improve but the regulatory burden 
that is upon the coal industry is really second to none, and it 
is impacting many of you here and those who you represent and 
work with.
    So, coal means jobs, and jobs means you can support your 
family, and you remove that and you see the impact across the 
country, and it is something we need to do, and the regulatory 
burden that the Environmental Protection Agency has put on us 
has been very difficult.
    And so Mr. Ventrone, in your testimony you mentioned that 
just 3 years ago, hundreds of construction workers and 
boilermakers from Local 154 installed state-of-the-art 
pollution control equipment on a 1,700-megawatt coal-fired 
plant, and this reflected a significant investment, I believe 
more than $500 million in the plant. Is that correct?
    Mr. Ventrone. Yes, sir.
    Mr. Harper. And these upgrades were up to EPA's standards 3 
years ago. Is that right?
    Mr. Ventrone. Right.
    Mr. Harper. But what has happened to the plant?
    Mr. Ventrone. It shut down.
    Mr. Harper. And that is despite the upgrades?
    Mr. Ventrone. Right.
    Mr. Harper. And why do you believe that is the case?
    Mr. Ventrone. Because now they are under the new standards. 
They are not going to put the money that----
    Mr. Harper. Exactly.
    Mr. Ventrone. They are not going to put that money into the 
plant because they can't recoup it.
    Mr. Harper. The goalposts get moved constantly. You think, 
OK, we are going to make a good-faith effort to meet the 
regulatory requirements. You do it, and guess what? It is a new 
game, an additional cost, and you say is there ever an end, and 
we go back to the philosophies that we see from this 
Administration and from this President when he was on the 
campaign trail that he would make it so expensive on the 
regulatory end that he would basically shut down the industry, 
and we are seeing it. I think he meant it when he said it. And 
now you are left dealing with this issue of how do you make 
sure that you are a good citizen and you are in compliance, you 
spend a fortune, you are less profit, less economical, and then 
guess what? You are no longer in compliance even though you 
thought you were or were going to be.
    Mr. Murphy. Could the gentleman yield for one second?
    Mr. Harper. So these are difficult--I will yield.
    Mr. Murphy. We only have 2 \1/2\ minutes left.
    Mr. Harper. How about if I yield back?
    Mr. Murphy. Because I would like to see if Gardner----
    Mr. Harper. I will yield to Mr. Gardner the remainder of my 
time.
    Mr. Gardner. Thank you, Mr. Chairman, and thank you, Mr. 
Harper as well. I just appreciate the witnesses for being here. 
It is great to see Mr. Lund from Colorado here, and thank you. 
And Mr. Pippy, we worked together in the State legislature. 
Great to see you as well.
    Mr. Lund, just real quick and then I will yield to Mr. 
Griffith, a couple things that you would like to have at the 
EPA listening session tomorrow in Denver, just a brief comment 
that you hope to share with the EPA listening session in Denver 
tomorrow.
    Mr. Lund. Well, I hadn't thought through that so I guess 
basically I would like to say that I have had a manager, and in 
particular I will say this as an example. One manager spoke to 
me just the other day and said really, we are not looking for 
favors, we are just looking to be able to compete, just to 
have, as Congressman Harper said, the goalposts not be moved on 
us. That is what we are looking for. All these issues of 
compliance and such are really different from what we are 
producing in our area because we are producing a super-
compliant coal, very clean coal. Basically it has been almost 
used as a niche market for blending with other coals to bring 
the quality up, to be able to meet the emissions requirements 
that they have to have. Now the market for that is going away. 
Where they are going now to try and sell their coal is 
overseas. That is where they are shipping their coal out. That 
has now become the big issue of ports and how they do that.
    Mr. Gardner. Thank you, Mr. Lund.
    Mr. Murphy. Mr. Griffith, you have 30 seconds and then we 
are hitting the gavel.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate it.
    Judge Brock, Mr. Horton, some of the comments that you made 
are the same things that my district, which adjoins your area, 
Judge Brock, is very close to yours, Mr. Horton. Our economy is 
being hammered the same way that yours is. We are doing 
everything we can here. I appreciate you all being here and 
making comments on that.
    Mr. Lund, we opened up a coal-fired power plant. It was the 
cleanest in the world when it opened up about a year and a 
month ago in my district, and we cannot meet the new 
regulations if they are applied, and I know they aren't, but if 
they were being applied to existing facilities, that new plant 
that did everything right wouldn't meet the regs. I yield back.
    Mr. Murphy. Thank you. I wish we had more time for other 
folks here, but there is a special ceremony now for former 
Speaker of the House Tom Foley, who sadly died a few days ago, 
and out of respect to my colleagues, we will end this hearing 
here.
    However, Ms. Ellmers, Mr. Johnson, if there are questions 
you want to submit and have the witnesses answer those, we will 
do that.
    In conclusion, I want to thank all the witnesses today and 
members that participated in today's hearing. I remind all 
members they have 10 business days to submit questions forthe 
record, and I ask the witnesses if you would all please agree 
to respond to them promptly.
    With that, this committee is adjourned.
    [Whereupon, at 2:59 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
